D
I                                                 EMPLOYMENT AND TRAINING
S
C                                                 ADMINISTRATION
U
S
S
I
O
N   Office of Inspector General—Office of Audit
D
R
A
F
T




                                                  CHANGES CAN PROVIDE ETA BETTER
                                                  INFORMATION ON PARTICIPANTS CO-
                                                  ENROLLED IN WORKFORCE INVESTMENT ACT
                                                  AND WAGNER-PEYSER PROGRAMS




                                                                     Date Issued:   September 28, 2012
                                                                  Report Number:      03-12-004-03-390
U.S. Department of Labor                                  September 2012
Office of Inspector General
Office of Audit                                           CHANGES CAN PROVIDE ETA BETTER
                                                          INFORMATION ON PARTICIPANTS CO-
                                                          ENROLLED IN WORKFORCE INVESTMENT
BRIEFLY…                                                  ACT AND WAGNER-PEYSER PROGRAMS

Highlights of Report Number 03-12-004-03-390, issued      WHAT OIG FOUND
to the Assistant Secretary for Employment and Training.
                                                          All but 1 of 53 SWAs reported they were co-enrolling
                                                          participants in the WIA Adult and Dislocated Worker
WHY READ THE REPORT
                                                          and Wagner-Peyser programs. The SWAs collectively
The Office of Inspector General (OIG) conducted a
                                                          reported that approximately 88 percent of WIA Adult
performance audit of the Workforce Investment Act
                                                          and Dislocated Workers nationwide were co-enrolled
(WIA) Adult and Dislocated Worker program
                                                          with Wagner-Peyser. Also, the SWAs and LWAs used
participants co-enrolled in the Wagner-Peyser program.
                                                          cost-allocation plans and resource-sharing agreements
The Department of Labor’s (DOL) Employment and
                                                          to ensure that WIA and Wagner-Peyser programs bear
Training Administration (ETA) awards more than
                                                          their fair share of costs. ETA faces three challenges as
$2 billion annually to State Workforce Agencies (SWA)
                                                          a result of co-enrollment that are inherent in WIA’s
to operate the WIA Adult and Dislocated Worker and
                                                          design to provide integrated services through multiple
Wagner-Peyser programs. Through separate funding
                                                          funding streams because: (1) a reporting mechanism
streams provided to the SWAs, the WIA Adult and
                                                          was not developed that could capture the reality
Dislocated Worker and Wagner-Peyser programs
                                                          brought about by co-enrollment — how to account for
deliver similar core and intensive services such as job
                                                          and report outcomes on participants who were
search, placement assistance, and assessment
                                                          concurrently receiving services funded by multiple
services. In February 2006, ETA issued guidance to
                                                          programs; (2) the SWAs’ and LWAs’ flexibility to
SWAs, encouraging them to co-enroll individuals in
                                                          co-enroll participants was impacted by the requirement
multiple programs because ETA believed doing so
                                                          that services funded by Wagner-Peyser be provided by
would help integrate services and improve participant
                                                          State employees; and (3) the risk that LWAs provided
outcomes. Currently, there are no statutory or
                                                          duplicate services to participants increased due to
regulatory requirements or goals for the SWAs or Local
                                                          co-enrollment.
Workforce Agencies (LWA) to implement co-enrollment.
ETA officials stated that co-enrollment is only a
voluntary tool to facilitate service delivery.            Without an effective system to measure the outcomes
                                                          of participants who were co-enrolled, ETA was not in a
                                                          position to provide program managers, policymakers,
WHY OIG CONDUCTED THE AUDIT                               and the public with relevant information about programs
We conducted this audit to answer the following
                                                          impacted by co-enrollment. The SWAs and LWAs faced
questions:
                                                          challenges to comply with the service and reporting
    1. 	 To what extent have SWAs and LWAs                requirements of the multiple funding streams.
         co-enrolled participants in the WIA Adult and
         Dislocated Worker and Wagner-Peyser
         programs?                                        WHAT OIG RECOMMENDED

    2. 	 What steps have SWAs and LWAs taken to           We recommended ETA: 1) work with stakeholders in
         ensure the WIA Adult and Dislocated Worker       conceptualizing and developing a plan for a
         programs and the Wagner-Peyser employment        comprehensive unified reporting system; 2) identify and
         program bear their fair share of costs?          share practices used by SWAs to address the
                                                          challenges of efficiently providing services by staff
    3. 	 What challenges, if any, remain as a result of   funded under WIA and Wagner-Peyser; and 3) notify
         implementing co-enrollment?                      SWAs that when co-enrolling it is important to ensure all
                                                          one-stop center staff can access information on
READ THE FULL REPORT                                      services provided to participants to avoid duplication of
To view the report, including the scope, methodology,     services.
and full agency response, go to:
http://www.oig.dol.gov/public/reports/oa/2012/03-12-      In its response to the draft report, ETA generally agreed
004-03-390.pdf.                                           with the report recommendations.
Table of Contents 

Assistant Inspector General’s Report ......................................................................... 1
 

Results In Brief .............................................................................................................. 2
 

Objective 1 — To what extent have SWAs and LWAs co-enrolled participants in the 

WIA Adult and Dislocated Worker and Wagner-Peyser programs? ................................ 5
 
          SWAs and LWAs have largely implemented co-enrollment practices. ................. 5
 

          ETA data for Program Year 2011 showed that all but one SWA co-enrolled 

            participants in the programs. ........................................................................... 5
 

Objective 2 — What steps have SWAs and LWAs taken to ensure the WIA Adult 

and Dislocated Worker programs and the Wagner-Peyser employment program 

bear their fair share of costs? ...................................................................................... 6
 
          SWAs and LWAs were able to ensure that the programs bear their fair 

            share of costs under co-enrollment. ................................................................ 6
 

          SWAs and LWAs had processes in place to ensure the WIA and Wagner-

            Peyser Programs bear their fair share of costs. .............................................. 6
 

Objective 3 — What challenges, if any, remain as a result of implementing co-
enrollment? .................................................................................................................... 8
 
          ETA and the SWAs face three challenges as a result of co-enrollment................ 8
 

          ETA's current reporting system, although in compliance with the laws, did 

             not capture the reality brought about by co-enrollment. .................................. 8
 
          The Wagner-Peyser requirement that program services be provided by 

             State employees impacted the SWAs’ and LWAs’ flexibility to co-enroll 

             participants. ................................................................................................... 10
 
          The risk that LWAs provided duplicate services to participants increased 

             due to co-enrollment. .................................................................................... 11
 

Recommendations ...................................................................................................... 12
 

Exhibits ........................................................................................................................ 13
 
          Exhibit 1 SWA Co-Enrollment Percentages PY 2010 ......................................... 15
 
          Exhibit 2 SWA Co-enrollment Practices ............................................................. 17
 

Appendices .................................................................................................................. 21
 
          Appendix A Background ..................................................................................... 23
 
          Appendix B Objectives, Scope, Methodology, and Criteria ................................ 25
 
          Appendix C Acronyms ........................................................................................ 29
 
          Appendix D ETA Response to Draft Report ....................................................... 31
 
          Appendix E Acknowledgements ......................................................................... 33
 
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





               Co-enrollment in WIA and Wagner-Peyser Programs
                                     Report No. 03-12-004-03-390
                                                          U.S. Deparrtment of Lab
                                                                                bor – Office off Inspector Ge
                                                                                                            eneral


U.S. De
      epartmentt of Laborr                              Office of Inspecctor General
                                                        Washington, D.C  C. 20210




Septemb
      ber 28, 201
                12

                                  Assis
                                      stant Inspe
                                                ector Gene
                                                         eral’s Repo
                                                                   ort



Jane Oaates
Assistan
       nt Secretaryy
 for Employment and Trainingg
200 Connstitution Av
                   venue, N.W
                            W
Washinggton, D.C. 20210


The Deppartment off Labor’s (D
                             DOL) Emplo  oyment and  d Training Administration (ETA)
awards more than $2 billion annually to State Workfforce Agen   ncies (SWA) to operate  e the
Workforce Investment Act (WIA) Adult an  nd Dislocatted Worker and Wagner-Peyser
program
      ms. Through  h separate funding stre
                                         eams provid  ded to the SWAs, WIA  A Adult andd
Dislocatted Worker and Wagne  er-Peyser programs d eliver similar core and  d intensive
services
       s such as joob search, placement assistance,, and assesssment servvices. Thesse
services
       s are delivered by Locaal Workforcce Agenciess (LWA) thrrough a one  e-stop delivvery
system. The underlying notion n of the one
                                         e-stop delivvery systemm is to coord
                                                                            dinate
program
      ms, services s, and governance struuctures so t hat particip
                                                                 pants have access to a
seamlesss system of workforce e investmennt services.. Currently, approxima ately 2,800
one-stopp centers th
                   hroughout the country provide the  ese service
                                                                es funded thhrough multiple
partner programs.1

In Februuary 2006, ETA issued    d guidance to the SWA  As, encoura aging them to co-enroll
individua
        als in multipple program ms. WIA alloows SWAs and LWAss to concurrrently enrolll
participa
        ants in more e than one program att a time as long as the   ey are eligib
                                                                                ble for the
servicess. ETA enco  ouraged co-enrollmentt because it believed doing so wo      ould help
        e services and improve participan
integrate                                    nt outcome es. Advantages of co-e  enrollment,
accordinng to ETA, include parrticipants no  ot having to
                                                        o wait until they exit on
                                                                                ne program m in
order to access serrvices offeredr by otherr employme    ent and traiining progra
                                                                                ams and be  eing
able to receive the best combination of services from    m different funding strreams.
Currently there are no statutory or regula  atory requireements or goals for th he SWAs orr
LWAs to o implemen  nt co-enrollmment. ETA officials staated that coo-enrollment is only a
voluntarry tool to fac
                     cilitate serv
                                 vice delivery
                                             y.




1
    WIA spec
           cified 18 partne
                          er programs tha
                                        at are required to provide acccess to core services in the on
                                                                                                    ne-stop system
                                                                                                                 m.

                                                             Co-enro llment in WIA
                                                                                 A and Wagnerr-Peyser Proggrams
                                                            1                       Report No. 03-12-004-03-390
                                                      U.S. Department of Labor – Office of Inspector General


The audit objectives were to answer the following questions:

    1. To what extent have SWAs and LWAs co-enrolled participants in the WIA Adult
       and Dislocated Worker and Wagner-Peyser programs?2

    2. What steps have SWAs and LWAs taken to ensure the WIA Adult and Dislocated
       Worker programs and the Wagner-Peyser employment program bear their fair
       share of costs?

    3. What challenges, if any, remain as a result of implementing co-enrollment?

The audit covered requirements, guidance, and practices in place at the time of our field
work — April to July 2012. We analyzed a random sample of WIA Adult and Dislocated
Worker participants who exited3 during the period April 1, 2010 – March 31, 2011, and
were reported as co-enrolled in Wagner-Peyser. We interviewed officials at ETA’s
National Office and Boston Regional office to gain an understanding of ETA’s objectives
for co-enrollment. We judgmentally selected SWAs located in four states — Arizona,
Oregon, Utah, and Washington — that co-enrolled participants in the WIA Adult and
Dislocated Worker and Wagner-Peyser programs. Additionally, we interviewed SWA
officials in New Hampshire because, according to reported information, it did not
co-enroll participants.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Our objectives, scope, methodology, and criteria are detailed in
Appendix B.

RESULTS IN BRIEF

All but 1 of 53 SWAs reported that they were co-enrolling participants in the WIA Adult
and Dislocated Worker and Wagner-Peyser programs. According to ETA data, as of
March 31, 2011, SWAs together reported that approximately 88 percent of WIA Adult
and Dislocated Workers nationwide were co-enrolled with Wagner-Peyser.

The SWAs and LWAs used cost-allocation plans and resource-sharing agreements to
ensure that WIA and Wagner-Peyser programs bear their fair share of costs. While the
SWAs we visited told us it may be burdensome, they had accounting systems and
practices designed to ensure that each program was bearing its fair share of costs. The
LWAs we visited had resource-sharing agreements in place designed to identify and


2
 WIA Dislocated Workers can also be co-enrolled in the WIA Adult program. Our audit focused on WIA Adult and 

Dislocated Worker co-enrolled in the Wagner-Peyser program.

3
  Exiters are participants who enrolled and received services and then exited from WIA programs.


                                                         Co-enrollment in WIA and Wagner-Peyser Programs
                                                        2                      Report No. 03-12-004-03-390
                                           U.S. Department of Labor – Office of Inspector General


track the funding streams that pay the costs of providing services to participants. We did
not perform tests to determine if costs were allocated as described.

ETA faces three challenges as a result of co-enrollment:

   	 ETA designed its WIA and Wagner-Peyser performance reporting systems to
      comply with the applicable laws for each program. However, a reporting
      mechanism was not developed that could capture the reality brought about by
      co-enrollment — how to account for and report outcomes on participants who are
      concurrently receiving services funded by multiple programs. With co-enrollment,
      the number of Wagner-Peyser participants has been included in the counts for
      WIA Adult and Dislocated Worker programs. For example, data reported by the
      SWAs show that the number of individuals served in the WIA Adult and
      Dislocated Worker programs increased over 500 percent between Program
      Years (PY) 2005 and 2010 from just over 1.3 million to over 8 million participants.
      However, the number of participants for the programs may not actually have
      increased as significantly as the SWAs reported because co-enrolled Wagner-
      Peyser participants were included in the counts for WIA Adult and Dislocated
      Worker programs. Under ETA’s present reporting system it was not possible to
      determine the level of effort provided by each program for the participant
      outcome. In 2009 ETA planned to implement a new reporting system that could
      track all participants receiving services from DOL-funded employment and
      training programs but ETA delayed it because of other priorities.

   	 Wagner-Peyser requires that program services be provided only by State
      employees. Thus the SWAs’ and LWAs’ flexibility to co-enroll participants was
      impacted. SWAs responsible for administering the Wagner-Peyser program and
      LWAs responsible for administering WIA programs had to coordinate resources
      co-located at one-stop centers, as required by WIA. While some SWAs
      developed solutions to address this challenge, officials from one SWA told us it
      was an ongoing problem to efficiently integrate WIA and Wagner-Peyser
      resources at the LWAs in order to provide concurrent services to co-enrolled
      participants.

   	 Finally, the risk that LWAs provided duplicate services to participants increased
      due to co-enrollment. Our testing of participant case files found instances of
      duplicative services such as assessments and individual employment plans at
      LWAs in one SWA. Although the SWA had an integrated case management
      system, it did not ensure WIA staff could access information showing services
      provided by Wagner-Peyser staff. SWA officials told us they were not aware of
      the problem but they could easily correct it.

The three challenges we cited are inherent in WIA’s design to provide integrated
services through multiple funding streams. Without an effective system to measure the
outcomes of participants who were co-enrolled, ETA was not in a position to provide
program managers, policymakers, and the public with relevant information about

                                             Co-enrollment in WIA and Wagner-Peyser Programs
                                            3                      Report No. 03-12-004-03-390
                                           U.S. Department of Labor – Office of Inspector General


whether the programs impacted by co-enrollment are accomplishing their intended
purpose. The SWAs and LWAs face challenges to comply with the service and reporting
requirements of the multiple funding streams. The SWAs in our audit used different
methods and practices to address these challenges.

We made three recommendations to ETA to work with workforce investment
stakeholders in conceptualizing and developing a plan for a comprehensive unified
reporting and performance measurement system for participants receiving services
through the workforce system as a whole, regardless of the funding source; identify and
share practices used by SWAs to address the challenges of efficiently providing
services by staff funded under WIA and Wagner-Peyser at the one-stop centers; and
notify SWAs that when co-enrolling it is important to ensure all one-stop center staff can
access information on services provided to participants to avoid duplication of services.

In response to the draft report, ETA generally agreed with the findings and
recommendations. However, ETA reiterated that co-enrollment is a voluntary tool for the
states to use in the design of their service delivery and it is not required either by laws
or regulations. ETA stated that a significant barrier to implementation of a
comprehensive unified reporting and performance measurement system is the
availability of resources. However, ETA will include an update on the latest
developments relating to a streamlined reporting system in an upcoming Training and
Employment Notice (TEN) which will be disseminated to all stakeholders. ETA also
explained that it will encourage SWAs to share co-enrollment information without
making a value judgment, since what works well in one state or area may not work well
or be appropriate in another. These comments will be included in the aforementioned
TEN. Finally, ETA stated it will also use the TEN to remind states of the importance of
avoiding duplicative services across multiple funding streams. The Assistant Secretary’s
entire response is contained in Appendix D.

OIG CONCLUSION

ETA needs to address how it will have SWAs implement a streamlined reporting system
in the long term, and it needs to include share practices from SWAs on integrating
Wagner-Peyser and WIA funded staff at the one-stop centers. We made no changes to
the report as a result of ETA’s response.




                                              Co-enrollment in WIA and Wagner-Peyser Programs
                                             4                      Report No. 03-12-004-03-390
                                           U.S. Department of Labor – Office of Inspector General




RESULTS

Objective 1 — To what extent have SWAs and LWAs co-enrolled participants in
              the WIA Adult and Dislocated Worker and Wagner-Peyser
              programs?

      SWAs and LWAs have largely implemented co-enrollment practices.

ETA data for Program Year 2011 showed that all but one SWA co-enrolled
participants in the programs.


All but one SWA reported that they co-enrolled participants in the WIA Adult and
Dislocated Worker and Wagner-Peyser programs. According to ETA data, as of
March 31, 2011, SWAs together reported that approximately 88 percent of WIA adult
and dislocated workers nationwide were co-enrolled with Wagner-Peyser.

ETA encouraged SWAs to fully integrate WIA programs and services with all of the
required and other appropriate one-stop partner programs to provide comprehensive
participant services. In February 2006, ETA issued Training and Employment Guidance
Letter (TEGL) 17-05, Common Measures Policy for ETA’s Performance Accountability
System and Related Performance Issues. The TEGL provided guidance on the common
measures developed by ETA, in conjunction with the Office of Management and Budget
(OMB), to minimize the different reporting and performance requirements of federal
employment and training programs. Common measures were also developed to
facilitate the integration of service delivery, reduce barriers to cooperation among
programs, and enhance the ability to assess the effectiveness and impact of the
workforce investment system. In the TEGL, ETA stated that participants can receive
services from multiple programs and may be counted as participant in each of the
programs.

There were no statutory or regulatory requirements for the SWAs or LWAs to implement
co-enrollment. ETA did not issue any guidance or goals to the SWAs or LWAs on how
they should implement and achieve co-enrollment among the WIA Adult and Dislocated
Worker and Wagner-Peyser programs. ETA officials said they did not have any specific
objectives for co-enrollment. ETA officials view co-enrollment only as a voluntary tool to
facilitate service delivery and said the reasons for encouraging SWAs and LWAs to
co-enroll were as follows:

      	 Co-enrollment provides participants seamless access to services.

      	 Participants do not have to wait until they exit one program in order to access
         services offered by other employment and training programs




                                             Co-enrollment in WIA and Wagner-Peyser Programs
                                            5                      Report No. 03-12-004-03-390
                                                         U.S. Department of Labor – Office of Inspector General


           	 Co-enrollment allows participants to receive the best combination of services
              from different funding streams and can lead to improved participant
              outcomes.

ETA’s Workforce Investment Act Standardized Record Data (WIASRD) provides
co-enrollment information on WIA Adult and Dislocated Worker exiters who received
Wagner-Peyser services. An ETA analysis of WIASRD data for the period covering
July 1, 2006, through March 31, 2011,4 showed co-enrollment between WIA Adult and
Wagner-Peyser exiters increased from almost 85 percent to more than 89 percent. For
the same period, co-enrollment between WIA Dislocated Worker and Wagner-Peyser
exiters increased from almost 76 percent to more than 88 percent. Our analysis of
WIASRD data showed that as of March 31, 2011, taken together, 88 percent of the WIA
Adult and Dislocated Worker exiters were co-enrolled in Wagner-Peyser.

New Hampshire was the only SWA that did not report any co-enrollment of WIA Adult
and Dislocated Workers in Wagner-Peyser, despite all the other SWAs reporting
co-enrollment. The extent of co-enrollment varied. Thirteen SWAs reported more than
95 percent co-enrollment while 8 SWAs reported less than 20 percent co-enrollment.
See Exhibit 1 for a schedule of SWAs co-enrollment percentages.

At the SWAs we visited in our audit, the co-enrollment policies and practices differed.
Like ETA, the SWAs did not have any specific policies or goals to co-enroll WIA Adult
and Dislocated Worker and Wagner-Peyser participants and they viewed co-enrollment
as a tool for integrating services at their one-stop centers. See Exhibit 2 for details on
the SWAs we visited.


Objective 2 — What steps have SWAs and LWAs taken to ensure the WIA Adult
              and Dislocated Worker programs and the Wagner-Peyser
              employment program bear their fair share of costs?

          SWAs and LWAs were able to ensure that the programs bear their fair share of
          costs under co-enrollment.

SWAs and LWAs had processes in place to ensure the WIA and Wagner-Peyser
Programs bear their fair share of costs.

The SWAs and LWAs used cost-allocation plans and resource-sharing agreements to
ensure that WIA and Wagner-Peyser programs bear their fair share of costs. While the
SWAs we visited stated it was burdensome, they had accounting systems and practices
designed to ensure that each program was bearing its fair share of costs. The SWAs
had cost-allocation plans for charging costs that benefited multiple programs. The LWAs
we visited had resource-sharing agreements in place designed to identify and track the
funding streams that paid the costs of providing services to participants. We concluded

4
    The latest WIASRD data available at the time of our audit was from quarter ending March 31, 2011.

                                                            Co-enrollment in WIA and Wagner-Peyser Programs
                                                           6                      Report No. 03-12-004-03-390
                                                         U.S. Department of Labor – Office of Inspector General


the allocation plans and resource-sharing agreements were designed to ensure
programs bear their fair share of costs but we did not however, perform tests to
determine if costs were allocated as described.

OMB circulars provide the cost principles and standards for determining costs for
Federal grant awards.5 The circulars explain that a cost is allocable to a particular cost
objective if the goods or services involved are chargeable or assignable to such cost
objective in accordance with relevant benefits received. Therefore, SWAs and LWAs
must have a process of assigning to two or more programs the costs of an item shared
by the programs. The goal is to ensure that each program bears its fair share, and only
its fair share, of the total cost of the item. Because WIA mandates that several
employment and training programs funded under different grants partner in one-stop
centers, SWAs and LWAs needed to develop acceptable methodologies for cost
allocation and resource sharing.

At the LWAs, we found that resource-sharing agreements documented information on
the cost-allocation methodologies developed by the partners in their one-stop system.
Because WIA provided LWAs the flexibility in designing their one-stop systems in order
to meet the needs of their participants, the types of costs to be shared and the
methodologies used to allocate the costs varied. Most of the LWAs used a model in
which Wagner-Peyser funded staff was co-located with WIA funded staff in order to
coordinate the delivery of services. The programs retained control of its own resources
and maintained a separate identity. This structure varied among the LWAs we visited.

For example, in Oregon, the SWA established a model to be used at all the LWAs for
one-stop centers referred to WorkSource Oregon Centers. The SWA developed a
Resource Sharing Agreement (RSA) Team comprising representatives from the partner
agencies. The RSA Team worked with the individual one-stop centers and local
workforce boards to ensure compliance with the WIA requirement for resource-sharing
agreements. The RSA Team also provided opportunities for training on the
development of RSAs. The RSA team developed a review tool to provide State
technical assistance to LWAs. Alternatively, Utah created a single-service delivery State
agency with no LWAs. Services were provided in an integrated seamless fashion to
participants. Common core and intensive services provided by State employees were
allocated to WIA and Wagner-Peyser using a Random Moment Time Sample.6




5
  OMB Circular A-87 provides cost principles for state, local, and Indian Tribal governments, and Circular A-122 

provides cost principles for non-profit organizations.

6
  Employees reported program activity they worked on at the moment they were sampled. Results were used to 

allocate costs.


                                                            Co-enrollment in WIA and Wagner-Peyser Programs
                                                           7                      Report No. 03-12-004-03-390
                                           U.S. Department of Labor – Office of Inspector General




Objective 3 — What challenges, if any, remain as a result of implementing co-
              enrollment?

      ETA and the SWAs face three challenges as a result of co-enrollment.

A reporting mechanism was not developed that could capture the reality brought about
by co-enrollment— how to account for and report outcomes on participants concurrently
receiving services funded by multiple programs. Also, the Wagner-Peyser requirement
that program services be provided only by State employees impacted the SWAs’ and
LWAs’ flexibility to co-enroll participants. Finally, there was a risk that LWAs could be
providing duplicate services to participants.

These challenges were inherent in WIA’s design to try to provide integrated services
through multiple funding streams. Without an effective system to measure the outcomes
of participants who were co-enrolled, ETA was not in a position to provide program
managers, policymakers, and the public with relevant information about whether the
programs impacted by co-enrollment were accomplishing their intended purpose. The
SWAs and LWAs faced challenges to comply with the service and reporting
requirements of multiple funding streams. The SWAs in our audit used different
methods and practices to address these challenges.


ETA's current reporting system, although in compliance with the laws, did not
capture the reality brought about by co-enrollment.

ETA designed its WIA and Wagner-Peyser performance reporting systems to comply
with the laws for each program. However, a reporting mechanism was not developed to
account for and report outcomes on participants concurrently receiving services funded
by multiple programs. With co-enrollment, the number of Wagner-Peyser participants
was included in the counts for WIA Adult and Dislocated Worker programs. It was
impossible under WIA’s present reporting system to determine the level of effort that
was provided by each program for the participant outcomes. Therefore, program
managers, policymakers, and the public did not have relevant information about
whether the programs were accomplishing their intended purposes.

WIA, Section 136, establishes a comprehensive performance accountability system to
assess the effectiveness of SWAs in achieving continuous improvement of workforce
investment activities in order to optimize the return on investment of federal funds. After
WIA was enacted, ETA worked with OMB to develop common measures for
performance of federal employment and training programs.

WIA regulations in Title 20, Code of Federal Regulations (20 CFR), Part 652, provides
that the underlying notion of the one-stop delivery system is the coordination of
programs, services and governance structures so that the participant has access to a
seamless system of workforce investment services. The regulations envisioned that a


                                              Co-enrollment in WIA and Wagner-Peyser Programs
                                             8                      Report No. 03-12-004-03-390
                                          U.S. Department of Labor – Office of Inspector General


variety of programs could use common intake, case management and job development
systems in order to take full advantage of the one-stop potential for efficiency and
effectiveness.

Co-enrollment impacted the quality of the data in ETA’s WIA reporting system. For
example, the number of individuals served in the WIA Adult and Dislocated Worker
programs increased over 500 percent between PYs 2005 and 2010 from more than 1.3
to more than 8 million participants. However, the number of participants for the
programs may not actually have increased as significantly as the SWAs reported
because co-enrollment allowed multiple programs to report outcomes for the same
participant as long they were eligible and the services provided met the program’s
reporting requirements.

The following examples, based on our analysis of WIASRD data for April 1, 2010,
through March 31, 2011, illustrate the challenges in using the current performance
system in the integrated one-stop environment created under WIA:

   	 Oregon ranked 3rd and 2nd of the 53 SWAs, in the number of WIA Adult and
      Dislocated Worker participants and exiters, respectively, even though it ranked
      27th in population. Similarly, Utah ranked 7th in the number of WIA Adult and
      Dislocated Worker participants and exiters, although the State ranked 35th in
      population.

   	 New York and Oregon reportedly co-enrolled 98 and 91 percent of their WIA
      Adult and Dislocated Workers with Wagner-Peyser, respectively. Together these
      2 SWAs accounted for 654,507 of the 1,653,216 (39.6 percent) WIA Adult and
      Dislocated Workers exiters nationwide.

   	 Comparing SWA reported expenditures for the WIA Adult and Dislocated Worker
      programs to the number of program participants served showed a wide variance
      in cost per participant. For example, New York’s cost per participant was $147,
      whereas Texas’s cost per participant was $2,654.

Under the current system, SWAs must separately track participants served by any of
the DOL-funded required one-stop partner programs until the participant exits. Multiple
programs reported outcomes on the same participant. As such, there is limited
information on the extent to which program was primarily responsible for the outcomes
of those participants who received core and intensive services funded by WIA Adult and
Dislocated Worker and Wagner-Peyser programs. As a result, it was difficult to assess
program performance for co-enrolled exiters and the reported outcomes did not provide
program managers, policymakers, and the public with relevant information about
whether the program was accomplishing its intended purpose.

ETA planned to implement an integrated data-reporting system called the Workforce
Investment Streamlined Performance Reporting (WISPR) that could enhance the
understanding of participant services and outcomes by integrating data reporting using

                                            Co-enrollment in WIA and Wagner-Peyser Programs
                                           9                      Report No. 03-12-004-03-390
                                           U.S. Department of Labor – Office of Inspector General


standardized reporting requirements across DOL employment and training programs.
WISPR would replace WIASRD and other reporting systems with a single reporting
structure. WISPR’s integrated structure would allow ETA and SWAs to track a
participant's progress through the one-stop system.

However, in March 2009, ETA placed a hold on implementing WISPR as it focused
resources on the American Recovery and Reinvestment Act. In September 2011, ETA
solicited comments in the Federal Register concerning the WISPR system and in April
2012, sponsored information collection request where interested parties were
encouraged to send comments to the OMB. To date, ETA has not set a timeline for
implementing WISPR nationally and it was only fully implemented in Pennsylvania and
Texas.

The Wagner-Peyser requirement that program services be provided by State
employees impacted the SWAs’ and LWAs’ flexibility to co-enroll participants.

Wagner-Peyser required that program services be provided only by State employees.
Thus the SWAs’ and LWAs’ flexibility to co-enroll participants was impacted. SWAs’
Employment Service agencies responsible for administering the Wagner-Peyser
program and LWAs responsible for administering WIA programs had to coordinate
resources co-located at one-stop centers, as required by WIA. While some SWAs
developed solutions to address this challenge, officials from one SWA told us it was an
ongoing problem to efficiently integrate WIA and Wagner-Peyser resources at the LWAs
in order to provide concurrent services to co-enrolled participants.

WIA regulations in 20 CFR, Part 652.216, states that the one-stop delivery system
envisions a partnership in which Wagner-Peyser Act labor exchange services are
coordinated with other activities provided by other partners in a one-stop setting. As part
of the local Memorandum of Understanding, the State agency, as a one-stop partner,
may agree to have staff receive guidance from the one-stop operator regarding the
provision of labor exchange services. Personnel matters, including compensation,
personnel actions, terms and conditions of employment, performance appraisals, and
accountability of State merit-staff employees funded under this Act, remain under the
authority of the State agency.

WIA reformed workforce investment programs, including Wagner-Peyser, and required
that services be delivered through local one-stop centers and supervision continued to
be divided between state and local governments. Regulations covering Wagner-Peyser
Act amendments in WIA affirmed that state agencies have exclusive authority to deliver
Wagner-Peyser Act services through state employees. U.S. courts also affirmed this in
response to an SWA’s attempt to have Wagner-Peyser services be provided by non-
state employees.

The following are examples of solutions developed by two of the SWAs in our audit to
address this challenge:



                                             Co-enrollment in WIA and Wagner-Peyser Programs
                                            10                     Report No. 03-12-004-03-390
                                            U.S. Department of Labor – Office of Inspector General


   	 In Utah, the Department of Workforce Services (DWS) administered employment
      and training programs. Utah integrated all employment and training programs
      under a single State agency with no local areas. Training services, including
      Wagner-Peyser, were provided by Employment Centers located throughout the
      State, which were staffed by State employees.

   	 In Oregon, separate State agencies administered the WIA and Wagner-Peyser
      programs. The Oregon Department of Community Colleges and Workforce
      Development (DCCWD) administered WIA programs and the Oregon
      Employment Department (OED) administered Wagner-Peyser programs. Oregon
      viewed State staff funded through Wagner-Peyser as important resources to be
      used at its WorkSource Oregon Centers as Career Advisors. OED and DCCWD
      made a concerted effort to integrate State and LWA staff as Career Advisors in
      order to provide efficient and seamless services. OED used State resources to
      ensure there was a sufficient number of staff to supplement LWA staff at the
      WorkSource Oregon Centers. The LWAs decided how to use the Career
      Advisors. LWAs could supervise OED Career Advisors but personnel matters
      were addressed by OED supervisors. OED and DCCWD officials told us there
      were no issues in integrating OED and LWA staff. However, OED staff did not
      view integrating OED and LWA staff as a threat to their jobs because of the large
      amount of staff available at the WorkSource Oregon Centers.

However, one SWA in our audit believed the Wagner-Peyser requirement was a
problem. Arizona Department of Economic Services (DES) officials told us the
requirement that Wagner-Peyser services be provided by State employees created a
challenge to coordinate resources at some of the SWAs’ one-stop centers. DES officials
said the requirement limited the flexibility in developing a service delivery strategy. This
especially impacted remote or rural locations, where placing a full-time staff for each of
the WIA and Wagner-Peyser programs was not warranted. Without the requirement,
one staff person, perhaps funded by WIA, could provide both services. As of now, that
one staff person had to be a DES employee which limited the services that could be
funded at a particular location. Currently, LWAs used a variety of methods to address
this barrier, such as periodically interchanging Wagner-Peyser and WIA staff between
locations, or assigning Wagner-Peyser and WIA staff on a part-time basis at specific
locations.

The risk that LWAs provided duplicate services to participants increased due to
co-enrollment.

Our testing of participant case files found instances of duplicative services such as job
placement and assessments at LWAs in one SWA. Although the SWA had an
integrated case management system, it did not ensure WIA staff could access
information showing services provided by Wagner-Peyser staff. SWA officials told us
they were not aware of the problem but they could easily correct it.




                                              Co-enrollment in WIA and Wagner-Peyser Programs
                                             11                     Report No. 03-12-004-03-390
                                           U.S. Department of Labor – Office of Inspector General


WIA, Section 112, requires that SWAs assure workforce investment activities under
WIA and Wagner-Peyser are coordinated to avoid duplication and there are referral
methods for individuals between the one-stop partners.

In Arizona, our case file review of 76 randomly selected co-enrolled exiters found that
33 (43 percent) received a duplicate service such as an initial assessment or individual
development plan. This occurred because LWA staff at the one-stop centers did not
have access to the Wagner-Peyser module in Arizona’s DES integrated case and
management information system, Arizona Job Connection (AJC). DES had just recently
implemented AJC and State information technology officials responsible for AJC
assumed that all one-stop center staff had access to all information on registered
participants. DES officials told us that AJC was designed to allow staff to view the
services provided by all partnered programs to better coordinate services and avoid
duplication. DES officials stated this will correct the problem.


RECOMMENDATIONS

We recommend that the Assistant Secretary for Employment and Training:

1. Work with workforce investment stakeholders in conceptualizing and developing a
   plan for a comprehensive unified reporting and performance measurement system
   for participants receiving services through the workforce system as a whole,
   regardless of the funding source.

2. Identify and share practices used by SWAs to address the challenges of efficiently
   providing services by staff funded under WIA and Wagner-Peyser at the one-stop
   centers.

3. Notify SWAs that when co-enrolling it is important to ensure all one-stop center staff
   can access information on services provided to participants to avoid duplication of
   services.

We appreciate the cooperation and courtesies that ETA personnel extended to the
Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
  for Audit




                                             Co-enrollment in WIA and Wagner-Peyser Programs
                                            12                     Report No. 03-12-004-03-390
             U.S. Department of Labor – Office of Inspector General




Exhibits 





               Co-enrollment in WIA and Wagner-Peyser Programs
              13                     Report No. 03-12-004-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





               Co-enrollment in WIA and Wagner-Peyser Programs
              14                     Report No. 03-12-004-03-390
                                          U.S. Department of Labor – Office of Inspector General


                                                                                     Exhibit 1
SWA Co-Enrollment Percentages PY 2010


                                                 PY 2010 WIA Adult
                                                        and
                       PY 2010 WIA Adult         Dislocated Worker
                              and                      Exiters
                       Dislocated Worker           Co-enrolled in             Percent
          SWA                Exiters              Wagner-Peyser             Co- Enrolled
California                         115,984                     115,984          100
Utah                                 97,197                     97,197          100
Arizona                               5,920                      5,920          100
Montana                               1,274                      1,274          100
South Dakota                            920                        920          100
Louisiana                            98,577                     98,131          100
Missouri                           144,683                     143,794           99
District of Columbia                  1,436                      1,425           99
Maryland                              2,498                      2,478           99
Wyoming                                 472                        463           98
New York                           481,615                     471,288           98
Iowa                                 25,799                     25,205           98
Rhode Island                          2,732                      2,657           97
Massachusetts                         8,100                      7,685           95
Indiana                            123,131                     114,991           93
Virgin Islands                          649                        606           93
Virginia                              7,269                      6,727           93
New Jersey                            8,660                      7,946           92
Oregon                             172,892                     157,087           91
Ohio                                 18,208                     16,411           90
North Dakota                            769                        684           89
New Mexico                            2,975                      2,614           88
Colorado                              3,062                      2,649           87
Texas                                31,361                     27,025           86




                                               Co-enrollment in WIA and Wagner-Peyser Programs
                                              15                     Report No. 03-12-004-03-390
                                      U.S. Department of Labor – Office of Inspector General


                                                                                Exhibit 1
                                                                                 Page 2
SWA Co-Enrollment Percentages PY 2010

                                          PY 2010 WIA Adult
                                                 and
                  PY 2010 WIA Adult       Dislocated Worker
                          and                   Exiters
                  Dislocated Worker         Co-enrolled in              Percent
         SWA            Exiters            Wagner-Peyser              Co- Enrolled
Pennsylvania                17,517                  14,982              86
South Carolina              16,610                  14,194              85
Connecticut                  3,179                   2,691              85
Mississippi                 36,287                  29,719              82
Hawaii                         613                      498             81
Idaho                        1,290                   1,000              78
Alabama                      5,026                   3,799              76
Alaska                         673                      499             74
Kentucky                     7,639                   5,548              73
Nebraska                     1,016                      733             72
Florida                     24,784                  17,122              69
Maine                        1,066                      707             66
Nevada                       5,536                   3,338              60
Minnesota                    7,502                   4,448              59
Oklahoma                    56,124                  33,236              59
Vermont                        676                      313             46
Georgia                      8,728                   3,865              44
Kansas                       9,829                   4,229              43
West Virginia                2,687                      827             31
Arkansas                     2,000                      523             26
Wisconsin                    7,529                   1,350              18
North Carolina              11,925                   1,878              16
Illinois                    14,674                   2,146              15
Washington                   6,916                      913             13
Delaware                     1,359                      110              8
Tennessee                   14,618                   1,145               8
Puerto Rico                  7,932                      600              8
Michigan                    21,852                      798              4
New Hampshire                1,446                        0              0
Total                    1,653,216               1,462,372              88




                                        Co-enrollment in WIA and Wagner-Peyser Programs
                                       16                     Report No. 03-12-004-03-390
                                         U.S. Department of Labor – Office of Inspector General


                                                                                   Exhibit 2
SWA Co-enrollment Practices

Utah

DWS administered employment and training programs in Utah. Since 1997, Utah
integrated all employment and training programs including those funded under the
Trade Act, Food Stamp, and the Temporary Assistance to Needy Families programs.
Utah integrated the employment and training programs to reduce duplication of effort
and maximize funding in order to reach the largest number of customers possible. DWS
was a single State service delivery area (there were no designated local areas) and all
its training services were provided by its one-stop system referred to as Employment
Centers. The Employment Centers were located throughout the State and staffed by
DWS employees. The Employment Centers had a common look and feel and were
designed to provide seamless and comprehensive employment services to participants.
All Employment Center employment counselors were required to follow State-approved
policy and procedures. Employment counselors provided support to individuals needing
assistance to achieve employment or to remain employed. DWS staff helped
participants regardless of which of the four key business processes they were
responsible for - eligibility, employment exchange, employment counseling, or
unemployment insurance. All Employment Counselors were required to offer core,
intensive, and training services. WIA Adult and Dislocated Worker and Wagner-Peyser
funds were used to provide core and intensive services. All participants receiving
staff-assisted core services were co-enrolled in WIA Adult and/or Dislocated Worker
and Wagner-Peyser programs.

Oregon

In Oregon, DCCWD administered WIA programs and OED administered
Wagner-Peyser programs. Oregon co-enrolled WIA Adult and Dislocated Worker and
Wagner-Peyser participants through LWA one-stop centers referred to as WorkSource
Oregon Centers. WorkSource Oregon Centers was the brand name used for all one-
stop centers in Oregon so there was a single identity for the workforce system to job
seekers. DCCWD and OED management told us they were committed to integrating its
workforce system between their departments and other partner programs. The
integration was part of Oregon’s WIA and Wagner-Peyser State Plan and was one of
OED’s initiatives in its latest strategic plan. DCCWD, OED, and the LWAs established
minimum standards to be used across the State for providing services under WIA and
Wagner-Peyser. The standards were designed to ensure consistency of basic services
among its WorkSource Oregon Centers. Oregon had a common seamless intake
process staffed by OED and LWA employees at the WorkSource Oregon Centers.
Participants who received staff assisted Wagner-Peyser service were co-enrolled in
WIA Adult and Dislocated Worker Programs.




                                           Co-enrollment in WIA and Wagner-Peyser Programs
                                          17                     Report No. 03-12-004-03-390
                                            U.S. Department of Labor – Office of Inspector General


                                                                                      Exhibit 2
                                                                                       Page 2
SWA Co-Enrollment Practices

Arizona

DES was responsible for administering Wagner Peyser and WIA at the State level. In
LWA one-stop centers, Wagner-Peyser Employment Service staff was co-located with
WIA staff. Each LWA must have at least one comprehensive one-stop center, housed in
either a DES Employment Service office or a location under the WIA local area. Some
LWAs also had affiliated or satellite offices that only had DES Wagner-Peyser
employees or WIA local area staff. Comprehensive one-stop centers had resource
rooms that were open to all participants for job search/career development and they
provided all core services required under WIA and Wagner-Peyser. A common referral
process was used to direct the participant to the appropriate partner. While the
workforce system was integrated, not all participants were co-enrolled. There were no
State-level requirements for co-enrolling WIA Adult and Dislocated Workers with
Wagner-Peyser. DES allowed the LWAs to decide co-enrollment policies and methods.
Participant co-enrollment depended on the LWAs and how co-enrollment fits into the
overall service delivery strategy for a particular participant. For example, by co-enrolling
a participant in both the Wagner-Peyser and WIA programs, Wagner-Peyser funds were
used to provide core services and part of the WIA funds, were available to provide
intensive services and/or training. Phoenix Workforce Connection LWA officials told us
they used to require all WIA applicants to first register with Wagner-Peyser but
discontinued the requirement due to the time commitments for training and other
employability readiness strategies. Now co-enrollment depends on the participant’s
need. If participants who enrolled in Wagner-Peyser needed additional services beyond
job search assistance they were co-enrolled into WIA Adult and/or Dislocated Worker
programs and vice versa.

Washington

The Employment Security Department (ESD) was responsible for administering the
Wagner-Peyser and WIA at the State level. ESD had policy providing guidance and
standards for delivering a minimum, consistent level of front-end services at the LWAs
one-stop centers, referred to as WorkSource Centers. The integrated front-end services
policy applied to LWA and WorkSource Center partners, including ESD employees. The
integrated framework was designed to utilize partners’ strengths and maximize benefits
to participants through the various stages of delivering services. The integrated
front-end services framework standardized the flow through which participants receive
services. WorkSource Center staff was trained and worked together to address
participants’ needs, regardless of the program for which they worked. The ESD did not
have any policies or guidance specific to co-enrollment, so it was at the discretion of the
LWA to determine how and when to co-enroll participants. Typically, participants receive
front-end services under Wagner-Peyser and were co-enrolled in WIA if they needed
more intensive work skills services.


                                              Co-enrollment in WIA and Wagner-Peyser Programs
                                             18                     Report No. 03-12-004-03-390
                                           U.S. Department of Labor – Office of Inspector General


                                                                                     Exhibit 2
                                                                                      Page 3
SWA Co-Enrollment Practices

New Hampshire

The New Hampshire Employment Security (NHES) was responsible for administering
Wagner-Peyser and the Department of Resources and Economic Development (DRED)
was responsible for administering WIA. New Hampshire was a single-State service
delivery area with no LWAs. According to WIASRD data, New Hampshire did not report
any WIA Adult and Dislocated Worker exiters co-enrolled in Wagner-Peyser. NHES and
DRED had separate case management systems for Wagner-Peyser and WIA and the
State had strict laws governing access to Wagner-Peyser information as it related to
Unemployment Insurance. Therefore, NHES and DRED officials stated it would be
difficult to track co-enrollment. Although the case management systems are separate,
NHES and DRED officials told us that they do co-enroll Trade Adjustment Assistance
participants with WIA. Also, staff at the one-stop centers co-enrolled participants if they
needed services offered by other programs. However, co-enrollment of Wagner-Peyser
participants in WIA Adult and/or Dislocated Worker programs did not occur because
Wagner-Peyser did not provide case management beyond the information and referral
stages. Therefore, Wagner-Peyser staff referred an adult to WIA but did not continue to
provide any meaningful staff-assisted services.




                                             Co-enrollment in WIA and Wagner-Peyser Programs
                                            19                     Report No. 03-12-004-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





               Co-enrollment in WIA and Wagner-Peyser Programs
              20                     Report No. 03-12-004-03-390
               U.S. Department of Labor – Office of Inspector General




Appendices 





                 Co-enrollment in WIA and Wagner-Peyser Programs
                21                     Report No. 03-12-004-03-390
            U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





              Co-enrollment in WIA and Wagner-Peyser Programs
             22                     Report No. 03-12-004-03-390
                                          U.S. Department of Labor – Office of Inspector General


                                                                                 Appendix A
Background

DOL’s ETA awards more than $2 billion annually to SWAs to operate the WIA Adult and
Dislocated Worker and Wagner-Peyser formula programs. Under WIA, the Governor is
responsible for establishing a state workforce investment board that, among other
things, determines strategic priorities, current and projected employment opportunities,
and the job skills necessary to obtain employment. The Governor designates local
workforce investment areas across the state and develops an allocation formula for
distributing funds to those local areas. At these local areas, LWAs are responsible
providing employment and training services to assist eligible individuals in finding and
qualifying for meaningful employment and to help employers find the skilled workers
they need to compete and succeed in business. Wagner-Peyser funds state-operated
Employment Service offices, which can be either on-site at WIA one-stop centers or
stand-alone offices, that focus primarily on job search and placement assistance.

WIA Adult and Dislocated Worker and Wagner-Peyser funding streams provide similar
core and intensive services. WIA provides three tiers of workforce investment services
to adults and dislocated workers: core (including initial assessment, job search and
placement assistance, and workforce/economic information), intensive (including more
comprehensive assessments, development of individual employment plans, and career
guidance/planning), and training. Wagner-Peyser provides a range of employment-
related labor exchange services, some similar to WIA’s core and intensive services
such as job search assistance, job referral, placement assistance, re-employment
services to Unemployment Insurance claimants, and recruitment services for
employers. SWAs cannot use Wagner-Peyser for training services.

Employment services are supposed to be delivered by LWAs through a one-stop
delivery system. According to WIA regulations, the underlying notion of the one-stop
delivery system is the coordination of programs, services and governance structures so
that the participant has access to a seamless system of workforce investment services.
Currently, there are approximately 2,800 one-stop centers that provide these services
funded through multiple partner programs. WIA envisioned that a variety of programs
could use common intake, case management and job development systems in order to
take full advantage of the one-stop delivery system’s potential for efficiency and
effectiveness. Costs are allocated to the various partner programs through a
cost-allocation plan and/or a resource-sharing agreement.

ETA encouraged SWAs to co-enroll adults and dislocated workers in both WIA and
Wagner-Peyser programs. WIA allows SWAs and LWAs to concurrently enroll
participants in more than one program at a time, as long as they are eligible for the
services received. Advantages of co-enrollment include participants not having to wait
until they exit one program in order to access services offered by other employment and
training programs and being able to receive the best combination of services from
different funding streams.



                                            Co-enrollment in WIA and Wagner-Peyser Programs
                                           23                     Report No. 03-12-004-03-390
                                           U.S. Department of Labor – Office of Inspector General


All funding sources can take the identical outcomes at the time the participant exits the
programs. Co-enrolled participants are included in the performance measures for the
WIA adult and dislocated worker and Wagner-Peyser programs. As long as an
individual has received at least a WIA-funded, staff assisted service, that person is
counted in WIA’s performance measures and if the person goes on to receive non-WIA
funded partner services, such as Wagner-Peyser, that person would be counted in the
performance measures for the non-WIA program.




                                             Co-enrollment in WIA and Wagner-Peyser Programs
                                            24                     Report No. 03-12-004-03-390
                                                         U.S. Department of Labor – Office of Inspector General


                                                                                                     Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

The audit objectives were to answer the following questions:

      1. To what extent have SWAs and LWAs co-enrolled participants in the WIA Adult
         and Dislocated Worker and Wagner-Peyser programs?

      2. Have SWAs and LWAs been able to ensure the WIA Adult and Dislocated
         Worker programs and the Wagner-Peyser employment program bear their fair
         share of costs?

      3. What challenges, if any, remain as a result of implementing co-enrollment?

Scope

The audit covered requirements, guidance, and practices in place at the time of our field
work – April to July 2012. We also analyzed a random sample of WIA Adult and
Dislocated participants who exited7 during the period April, 1, 2010 – March 31, 2011,
and were reported as co-enrolled in Wagner-Peyser. We judgmentally selected SWAs
located in four states — Arizona, Oregon, Utah, and Washington — that co-enrolled
participants in the Adult and Dislocated Worker and Wagner-Peyser programs. We also
visited two LWAs for each State, with the exception of Utah because it was a single-
State delivery service area and had no LWAs.

The following are the SWAs and LWAs selected for the audit.

Arizona                                                       Oregon
Department of Economic Security                               Oregon Employment Department
Phoenix, Arizona                                              Salem, Oregon
City of Phoenix Workforce Connection                          Department of Community Colleges and
Phoenix, Arizona                                              Workforce Development
                                                              Salem, Oregon
Pima County Workforce Investment Board                        Workforce Investment Board for the City
Tucson, Arizona                                               of Portland and Multnomah and
                                                              Washington Counties
                                                              Portland, Oregon
                                                              Lane Workforce Partnership
                                                              Eugene, Oregon


7
    Exiters are participants who enrolled and received services and then exited from WIA programs.

                                                           Co-enrollment in WIA and Wagner-Peyser Programs
                                                          25                     Report No. 03-12-004-03-390
                                          U.S. Department of Labor – Office of Inspector General


Washington                                      New Hampshire
Employment Security Department                  Employment Security Department
Olympia, Washington                             Concord, New Hampshire
Workforce Development Council of Seattle-       Department of Resources and
King County                                     Economic Development, Office of
Seattle, Washington                             Workforce Opportunity
                                                Concord, New Hampshire
Eastern Washington Partnership Workforce
Development Council
Colville, Washington

Utah
Utah Department of Workforce
Services, Salt Lake City, Utah

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Methodology

We interviewed officials at ETA’s National Office and Boston Regional office to gain an
understanding of ETA’s objectives for co-enrollment. We interviewed officials at the
SWAs and LWAs to gain an understanding of their co-enrollment methods, policies and
procedures and how they allocated costs among the WIA Adult and Dislocated Worker
and Wagner-Peyser programs. Additionally, we interviewed SWA officials for New
Hampshire because, according to reported information, it does not co-enroll
participants.

At the LWAs we reviewed case files to identify the services they received and the
outcomes achieved by the exiters selected in our sample. All together, the LWAs,
including the Utah single-State delivery service area, reported a total of 160,909
co-enrolled exiters and we reviewed a random sample of 436. We used a 90 percent
confidence level with a +/- 7 percent sampling precision. We did not project the sample
results.

We assessed the reliability of ETA’s WIASRD data by: (1) performing tests for
completeness, accuracy, and consistency of the data elements used in the audit, and
(2) reviewing existing information about the data. We did find some problems with
several of the data elements and they are described in the report findings. Otherwise,
we determined the data was sufficiently reliable for the purposes of this audit.



                                            Co-enrollment in WIA and Wagner-Peyser Programs
                                           26                     Report No. 03-12-004-03-390
                                          U.S. Department of Labor – Office of Inspector General


In planning and performing our audit, we considered whether internal controls significant
to the audit were properly designed and placed in operation. This included reviewing
ETA, SWA, and LWA’s policies and guidance related to co-enrollment of participants in
WIA Adult and Dislocated Worker programs. We confirmed our understanding of these
controls and procedures through interviews and case file review and analysis. Our
consideration of these internal controls would not necessarily disclose all matters that
might be significant deficiencies. Because of inherent limitations in internal controls,
misstatements or noncompliance may nevertheless occur and not be detected.

Criteria

WIA of 1998, Public Law 105–220, August 7, 1998

20 CFR, Part 652, et al. WIA; Final Rules, August 11, 2000

TEGL 17-05, Common Measures Policy for the ETA Performance Accountability
System and Related Performance Issues, February 17, 2006

OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal Governments,
May 10, 2004.

OMB Circular A-122, Cost Principles for Non-Profit Organizations, June 1, 1998




                                            Co-enrollment in WIA and Wagner-Peyser Programs
                                           27                     Report No. 03-12-004-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





               Co-enrollment in WIA and Wagner-Peyser Programs
              28                     Report No. 03-12-004-03-390
                                         U.S. Department of Labor – Office of Inspector General


                                                                                Appendix C
Acronyms

AJC        Arizona Job Connection
CFR        Code of Federal Regulations
DCCWD      Department of Community Colleges and Workforce Development
DES        Department of Economic Security
DOL        Department of Labor
DRED       Department of Resources and Economic Development
DWS        Department of Workforce Services
ESD        Employment Security Department
ETA        Employment and Training Administration
LWA        Local Workforce Agency
NHES       New Hampshire Employment Security
OED        Oregon Employment Department
OIG        Office of Inspector General
OMB        Office of Management and Budget
PY         Program Year
RSA        Resource Sharing Agreement
SWA        State Workforce Agency
TEGL       Training and Employment Guidance Letter
TEN        Training and Employment Notice
WIA        Workforce Investment Act
WIASRD     Workforce Investment Act Standard Record Data
WISPR      Workforce Investment Streamlined Performance Reporting




                                           Co-enrollment in WIA and Wagner-Peyser Programs
                                          29                     Report No. 03-12-004-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





               Co-enrollment in WIA and Wagner-Peyser Programs
              30                     Report No. 03-12-004-03-390
                               U.S. Department of Labor – Office of Inspector General


                                                                      Appendix D
ETA Response to Draft Report




                                 Co-enrollment in WIA and Wagner-Peyser Programs
                                31                     Report No. 03-12-004-03-390
U.S. Department of Labor – Office of Inspector General




  Co-enrollment in WIA and Wagner-Peyser Programs
 32                     Report No. 03-12-004-03-390
                                          U.S. Department of Labor – Office of Inspector General


                                                                                 Appendix E
Acknowledgements

Key contributors to this report were Michael Hill, Audit Director, Jen Varvel, Lead
Auditor, Y.C. Lee, Joseph Pomianek, Theresa Remolde, Badara Kamara, and Ajit
Buttar.




                                            Co-enrollment in WIA and Wagner-Peyser Programs
                                           33                     Report No. 03-12-004-03-390
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
